OIG Investigative Reports, New York, NY., February 08, 2011 - New Jersey Man Sentenced in Manhattan Federal Court for Stealing Social Security Benefits
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
United States Attorney
Southern District of New York
FOR IMMEDIATE RELEASE
FEBRUARY 08, 2011
CONTACT:    U.S. ATTORNEYS OFFICE
ELLEN DAVIS, CARLY SULLIVAN,
JERIKA RICHARDSON, EDELI RIVERA
PUBLIC INFORMATION OFFICE
(212) 637-2600
NEW JERSEY MAN SENTENCED IN MANHATTAN FEDERAL COURT
FOR STEALING SOCIAL SECURITY BENEFITS
PREET BHARARA, the United States Attorney for the
Southern District of New York, announced that WILLIAM JENKINS, a
New Jersey resident, was sentenced yesterday in Manhattan federal
court to ten months in prison for stealing his deceased mother’s
social security benefits. JENKINS previously pled guilty in
Manhattan federal court on October 5, 2010, before U.S. District
Judge JED S. RAKOFF.
According to the Information to which JENKINS pled
guilty, the criminal Complaint previously filed in this case, and
statements made during the guilty plea and sentencing
proceedings:
JENKINS, 54, of Jackson, New Jersey, had access to his
mother’s bank account into which the Social Security
Administration ("SSA") direct deposited her monthly social
security benefit. During the guilty plea proceeding, JENKINS
admitted that, after his mother passed away, he failed to so
notify the SSA, and instead, from June 2008 through November
2009, withdrew the monthly benefits from that account for his
personal use. In total, JENKINS admitted that he stole
$30,079.33 in social security benefits. In addition to imposing
10 months in prison, Judge RAKOFF imposed a term of three years
of supervised release and ordered full restitution.
Mr. BHARARA praised the investigative work of the U.S.
Department of Education, Office of Inspector General and the
Social Security Administration.
This case is being handled by the Office’s Public
Corruption Unit. Assistant U.S. Attorney CARRIE H. COHEN is in
charge of the prosecution.
11-036
###
Top
Printable view
Last Modified: 06/03/2011
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov